No. 19A______

IN THE

Supreme Court of the United States
________

CHRISTA GAIL PIKE,
Applicant,
v.
WARDEN,
Respondent.
________
APPLICATION FOR EXTENSION OF TIME TO FILE A PETITION FOR A
WRIT OF CERTIORARI
________
To the Honorable Sonia Sotomayor, Associate Justice of the United States
Supreme Court and Circuit Justice for the Sixth Circuit:
1.

Pursuant to 28 U.S.C. 2101(c) and Supreme Court Rule 13.5, Applicant

Christa Gail Pike (“applicant”) respectfully requests a 60-day extension of time, to
and including February 24, 2020, within which to file a petition for a writ of
certiorari to review the judgment of the United States Court of Appeals for the
Sixth Circuit in this capital case. The court of appeals issued its opinion on August
22, 2019 (attached hereto as Tab A), and issued an order denying applicant’s timely
petition for rehearing on September 26, 2019 (attached hereto as Tab B). The
jurisdiction of this Court would be invoked under 28 U.S.C. 1254(1).
1

2.

Absent an extension, the time for filing a petition will expire on

December 26, 2019. Consistent with Rule 13.5, this application is being filed at
least 10 days before that date, and no prior application has been made in this case.
3.

Applicant was convicted of murder in a Tennessee state court in 1996.

After a hearing, the jury sentenced applicant—who was 18 years old at the time of
her crime—to death by electrocution. See Tab A at 5.
4.

The counsel who defended applicant during that hearing built their

entire mitigation case around the testimony of an expert mitigation specialist, who
prepared an in-depth “Social History” of applicant supported by record evidence.
But defense counsel failed to call the mitigation specialist to testify due to a lastminute “misunderstanding” between defense counsel and the witness. Instead,
defense counsel presented the testimony of family members who happened be in
attendance at trial, despite the fact that they shared culpability for applicant’s
abusive upbringing and were unprepared to testify. Worsening matters, when the
family members were cross-examined, the prosecution made use of the mitigation
specialist’s materials to impeach them, because defense counsel had turned over
those materials to the prosecution before abandoning the expert’s testimony at the
last minute.
5.

Applicant appealed her convictions and sentences, which the

Tennessee courts affirmed. She then filed a petition for postconviction relief in
state court, but the Tennessee courts denied that relief. See Tab A at 6.

2

6.

Applicant next filed a petition for a writ of habeas corpus pursuant to

28 U.S.C. 2254 in the Eastern District of Tennessee. The district court granted the
warden’s motion for summary judgment. The court concluded that trial counsel’s
last-minute decision to forgo testimony from the expert mitigation specialist was a
tactical decision; that applicant failed to establish prejudice from the failure to
present that evidence, on the ground that testimony from the expert mitigation
specialist would have been cumulative; and that trial counsel’s meager mitigation
investigation did not constitute ineffective assistance.
7.

The Sixth Circuit affirmed the district court’s denial of applicant’s

habeas petition. The court of appeals ruled that the State of Tennessee did not
deprive applicant of her right to effective assistance of counsel under the Sixth
Amendment and this Court’s decision in Strickland v. Washington, 466 U.S. 668
(1984), even though her attorneys failed to present compelling mitigation evidence
during the penalty phase of her capital trial. The court of appeals characterized the
detailed expert testimony that applicant’s counsel failed to present to the jury as
similar to the “evidence actually presented at sentencing” by applicant’s abusive
family members, including family members who disbelieved applicant’s account of
sexual abuse she experienced as a child. Tab A at 7-11. The court of appeals also
found that counsel’s failure to investigate and discover other mitigating evidence,
including evidence of various relevant medical diagnoses, did not constitute
ineffective assistance. Tab A at 10-13.

3

8.

Judge Stranch filed a separate concurring opinion. She noted that the

case presents “an issue with which our society must be concerned—whether 18year-olds should be sentenced to death. Had she been 17 rather than 18 at the time
of her crime, like her codefendant * * * , [applicant] would not be eligible for the
death penalty.” Tab A at 15.
9.

This case merits this Court’s review. The Court has long recognized

that a defendant’s Sixth Amendment rights are violated where defense counsel fails
to adequately develop and present mitigation evidence in capital cases. See
Williams v. Taylor, 529 U.S. 362, 393-394 (2000); Wiggins v. Smith, 539 U.S. 510,
521-523 (2003); Rompilla v. Beard, 545 U.S. 374, 380-384 (2005). The decision of
the court of appeals is irreconcilable with Strickland and with this Court’s
subsequent decisions addressing the critical responsibility of defense counsel in the
mitigation phase of capital cases. It also departs from the decisions of other courts
of appeals that have found ineffective assistance in cases in which trial counsel
presented some limited mitigating evidence but failed to present much more
detailed and compelling evidence on the same topics. See, e.g., Abdul-Salaam v.
Sec’y of Pennsylvania Dep’t of Corr., 895 F.3d 254 (3d Cir. 2018).
9.

Applicant respectfully requests an extension of time to file a petition

for a writ of certiorari. Undersigned counsel was recently retained to draft the
petition. A 60-day extension would allow counsel sufficient time to fully research
and analyze the issues presented, to coordinate with co-counsel, and to prepare the
petition for filing. In addition, undersigned counsel has a number of other pending

4

matters that will interfere with counsel’s ability to file the petition on December 26,
2019, including a brief due in the Ninth Circuit on December 20, 2019 (in In re
PG&E Corporation, Nos. 19-16833, 19-16834) and preparations for oral argument in
the Ninth Circuit in January 2020 (in Wegner v. Wells Fargo Bank, N.A., No. 1816278).
Wherefore, applicant respectfully requests that an order be entered extending
the time in which to file a petition for a writ of certiorari to and including February
24, 2020.
Dated: December 6, 2019

Respectfully submitted,
_/s Elaine J. Goldenberg_____
ELAINE J. GOLDENBERG
Counsel of Record
MUNGER, TOLLES & OLSON LLP
1155 F Street, NW, 7th Floor
Washington, DC 20004
(202) 220-1114
elaine.goldenberg@mto.com
Counsel for Petitioner

5

